No, 20-443

 

IN THE

Supreme Court of the United States

UNITED STATES, PETITIONER,
vD.

DZHOKHAR A. TSARNAEV

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

BRIEF OF AMERICAN BAR ASSOCIATION AS AMICUS
CURIAE IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,278 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
